<html>
<title> - KEEPING THE COAST GUARD ``ALWAYS READY'' IN ALASKA</title>
<body><pre>[Senate Hearing 112-169]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-169
 
                        KEEPING THE COAST GUARD 
                       ``ALWAYS READY'' IN ALASKA

=======================================================================


                             FIELD HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 12, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
71-578                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK L. PRYOR, Arkansas              JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                     MARK BEGICH, Alaska, Chairman
PDANIEL K. INOUYE, Hawaii            OLYMPIA J. SNOWE, Maine, Ranking
JOHN F. KERRY, Massachusetts         ROGER F. WICKER, Mississippi
BILL NELSON, Florida                 JOHNNY ISAKSON, Georgia
MARIA CANTWELL, Washington           JOHN BOOZMAN, Arkansas
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
AMY KLOBUCHAR, Minnesota             KELLY AYOTTE, New Hampshire
MARK WARNER, Virginia                DEAN HELLER, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 12, 2011..................................     1
Statement of Senator Begich......................................     1

                               Witnesses

Admiral Robert J. Papp, Jr., Commandant, U.S. Coast Guard........     2
    Prepared statement...........................................     5


                        KEEPING THE COAST GUARD 
                       ``ALWAYS READY'' IN ALASKA

                              ----------                              


                        FRIDAY, AUGUST 12, 2011

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                     Anchorage, AK.
    The Subcommittee met, pursuant to notice, at 11:38 a.m. at 
the University of Alaska-Anchorage, Edward Lee Gorsuch Commons 
Building, Sharon Gagnon Lane, Anchorage, Alaska 99508, Hon. 
Mark Begich, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. We will go ahead and call this field 
hearing open. This hearing is on Keeping the Coast Guard 
``Always Ready'' in Alaska.
    We are pleased to welcome Admiral Papp once again to 
Alaska. Thank you for being here, and thanks for bringing the 
great weather. That is how it works with the Coast Guard. Is 
that right?
    Admiral Papp. Yes, sir.
    Senator Begich. You only operate in good weather. But thank 
you very much, and as Chair of the Senate Commerce Committee 
Subcommittee on Oceans, Atmosphere, and Fisheries, and Coast 
Guard, we have had many opportunities, I know, in Washington to 
have discussions about the needs not only for Alaska, but for 
the Coast Guard in general.
    Again, thank you for being here, and I noticed you have 
your wife here. And I know you told her that you are going to 
give her as much free time as possible, which I am not sure has 
occurred yet. So, thank you again for being here.
    The Coast Guard is an incredibly important part of Alaska. 
We are proud to host the largest Coast Guard base in the United 
States in Kodiak. This is where the men and women of the air 
station communication stations on the Cutter MONROE, ALEX 
HALEY, and the SPAR brave the notorious Bering Sea to rescue 
mariners in distress, and protect our fisheries by enforcing 
our laws.
    In Valdez, Anchorage, in Juno, the Coast Guard sectors 
vessel traffic services and aids in navigation, protect our 
economic lifelines and treasured marine environment by ensuring 
the safety of marine commerce and responding to marine 
pollution incidences.
    And throughout southeast and south central, the Coast Guard 
cutters, air stations, and small boat stations are the public 
safety department of the sea. They serve as law enforcement, 
fire, and rescue, and emergency services rolled into one multi-
mission, maritime military service that we could not do 
without.
    Today's Coast Guard is facing a host of challenges. With an 
aging fleet of cutters and aircraft, the service is in the 
middle of a major and expensive recapitalization effort. As we 
have heard, however, Washington is looking to major cutbacks in 
the government's spending. In jeopardy is the funding for the 
new cutters and aircraft that we need the service to have so it 
can do the job to protect us. In addition, the Coast Guard is 
being asked to take on new challenges in the Arctic as melting 
sea ice opens the region to new resource development, shipping, 
and tourism.
    As Admiral Papp pointed out during a meeting of this 
subcommittee just a couple of weeks ago in Washington, Alaska's 
Arctic needs new infrastructure to adequately address these 
issues. Today we want to focus on some of those questions. How 
should we ensure that Coast Guard funding gets priority? How 
will the service adapt to budgetary realities?
    The Coast Guard needs more than just ships and airplanes to 
reform its many missions. However, Team Coast Guard is made up 
of active duty, reserve, auxiliary, and silver service members. 
These more than 3,900 Alaskans--I'll be patient. Do we need to 
do anything? No? These more than 3,900 Alaskans, plus the 
families that support them, are the true heart of the service. 
From Ketchikan to Kodiak, they are the members of our 
communities. We see them in grocery stores, volunteering in the 
schools, and maybe even fishing for halibut or salmon once in a 
while. We need to ensure they have the support they need to 
keep the Coast Guard semper paratus--always ready--in Alaska.
    I know all of these issues are important to Admiral Papp, 
and I look forward to discussing them with you and having an 
opportunity to hear your comments.
    Admiral Papp.

           STATEMENT OF ADMIRAL ROBERT J. PAPP, JR., 
                  COMMANDANT, U.S. COAST GUARD

    Admiral Papp. Well, good morning, Chairman Begich. First of 
all, it is great to be outside Washington, D.C. and back in 
Alaska. And, sir, any time you want to hold a Senate hearing in 
Anchorage, I would be delighted to come out here and 
accommodate that.
    Senator Begich. And we will do it in the summer.
    Admiral Papp. Yes, sir. So, I want to thank you once again 
for your continuing support of our Coast Guard.
    As you fully and well know, the Coast Guard is no stranger 
to Alaskan waters. We have patrolled here since 1867 when 
Alaska was just a territory. And during the 19th century, we 
ensured the stewardship of seal herds and salmon fisheries. We 
introduced reindeer to provide more dependable food services 
for the native tribes. We treated the sick, and we were 
literally the law of both the sea and the land as our cutters 
crews would embark federal judges to dispense justice.
    Today we are no longer the law of the land, but we continue 
to patrol the Alaskan waters, safeguard the public, protect the 
environment and its resources, and maintain a sovereign 
presence in the Alaska and Arctic maritime.
    Over the last weekend, as I did last year, I have been 
visiting our bases and observing our operations, and, most 
importantly, meeting with our Coast Guard men and women to see 
and hear firsthand what it is like to serve and live in our 
most extreme area of operations. Having traveled to Kodiak, to 
Anchorage, on to Valdez, Sitka, and even up to Barrow on the 
North Slope, and flying out to visit our icebreaker HEALY, I 
can report that our Coast Guard is ready to meet our mission 
demands, but we are also facing many challenges.
    These challenges include, first, completing the acquisition 
of at least eight national security cutters or NSCs, to conduct 
high seas missions like fisheries enforcement patrols in the 
Bering Sea. Next, outlining our present and future 
infrastructure and surface requirements to operate and respond 
to operations in the Bering Sea and an increasingly iced 
diminished Arctic. And then finally, to adequately provide for 
the needs of the 1,600 Coast Guard active duties stationed 
throughout Alaska.
    So, first on the completion of the national security cutter 
fleet, or NSC, it is our newest and most capable high endurance 
cutter, and it is critical to our ability to continue the 
Bering Sea's fisheries patrols, as well as other high seas 
missions, like drug interdiction in the Eastern Pacific.
    NSC number one, the cutter BERTHOLF, just recently finished 
her first Alaska patrol, exhibiting remarkable sea keeping 
ability that enabled her to launch and recover her boats, 
boarding teams, and helicopters in sea states that heretofore 
we would have been unable to do with our legacy cutters.
    NSC numbers two and three are complete, and we just started 
cutting steel on NSC number four. And I am confident that 
within the next couple of days or so, we will complete our 
negotiations on the contract for number five at a very 
reasonable price.
    We definitely need at least eight national security cutters 
to preserve our future ability to protect our fish stocks, our 
fishermen, and our fishing industry. And as you know, a $5 
billion industry like that is responsible for thousands of 
jobs.
    Second, we need to enhance our Bering Sea and Arctic 
response capabilities. Every year we respond to search and 
rescue cases along the Aleutian chain and in the Bering Sea. 
These are never simple requests for assistance; rather, extreme 
weather conditions and great distances make each of these 
missions an epic challenge with life or death circumstances.
    In order to reduce our response times, we follow the 
fishing fleet and forward deploy our helicopters and flight 
crews. For instance, during the winter of grabbing season, our 
helicopter crews forward deploy to Cold Bay and also to St. 
Paul Island. However, conditions for our crews at these 
locations can be very austere. Cold Bay, in particular, is a 
challenge. The hangar is in disrepair. It has no heat, and 
there is only limited berthing, which is graciously provided by 
the Alaska State troopers. Our crews do not complain because 
they know that being forward deployed ultimately saves lives.
    However, it is vital that we invest in upgrading Cold Bay 
because it lies at the crossroads of the Bering Sea. Even when 
our crews are not seasonably deployed here, numerous helicopter 
missions stop in Cold Bay to refuel as they fly missions along 
the Aleutian chain and into the Bering Sea.
    Up in the Arctic Circle, as you know, the ice conditions 
continue to diminish, and an entire new ocean is emerging. 
These new waters are spurring an increase in human activities, 
such as natural resource exploration, shipping, and eco-
tourism. Oil companies are seeking and obtaining permits to 
conduct exploratory drilling. Increased vessel traffic, 
including large foreign tankers, are using Russia's ice free 
northern sea route, which exits through the Bering Sea into our 
richest fishing ground. And small cruise ships are pressing 
even further above the Arctic Circle.
    However, we have extremely limited Arctic response 
capabilities. We do not have any infrastructure on the North 
Slope to hang our aircraft, moor our boats, or sustain our 
crews. And I have only one operational icebreaker.
    We need to be about the business of finalizing our 
capability requirements to meet our responsibilities in these 
new Arctic waters, which still remain frozen and dark for much 
of the year. Our recently released high latitude study provides 
us with an excellent first strategic look at our Arctic risks 
and needs.
    I remain very concerned that our nation currently has only 
one operational icebreaker. Having ice capable surface assets 
is vitally important, both for science, sovereignty, and many 
other missions. Indeed, most of our search and rescue missions, 
or even environmental response, you need a surface ship to 
carry out the response. Surface assets can break out and tow a 
ship. They can clean up oil. Aircraft cannot.
    Going forward, as Arctic oil exploration starts and 
advances toward production, we need to decide what Arctic 
pollution response capability we want our Coast Guard and our 
nation to have. While oil companies can assert they have 
sufficient assets on the scene to respond to a worst case 
discharge scenario, prudence dictates that we also acquire an 
appropriate level of Arctic pollution response capability. 
Presently, we have none.
    We also need the Senate to accede to the Law of the Sea 
Treaty. All other Arctic nations and most other nations 
worldwide have already done so. U.S. accession would secure 
important rights to ensure the Coast Guard mobility, freedom of 
navigation, and provide us with greater influence to shape 
desired national outcomes for maritime safety, security, and 
environmental protection.
    With that said, I want to assure you that we remain 
committed to Alaska. Following the loss of a helicopter out of 
Air Station Sitka last year, we immediately re-racked missions 
at other Coast Guard stations to obtain a back-fill helicopter. 
Operations in Sitka are too important to allow them to go below 
three helicopters. We are also pleased that Congress has since 
appropriated funding to replace this helicopter.
    Additionally, I am temporarily assigning a fifth HH-60 
helicopter at Kodiak to support the crab season, and in 2013 I 
will permanently assign an HH-60, pending appropriation in the 
Fiscal Year 2012 budget request.
    I also plan to station two of our new Sentinel class fast 
response cutter patrol boats in Ketchikan. In the interim, I am 
moving one of our older patrol boats, a 110-foot patrol boat, 
from Miami to Ketchikan until the FRCs arrive.
    Finally, I cannot forget our hard working Coast Guard men 
and women and their families who serve here, and many in remote 
locations. We appreciate your continued support in enabling us 
to provide for these families. In the Coast Guard, we work as a 
crew, but we also serve as a family, and there is nothing more 
important than ensuring the needs of our Coast Guard families 
are being meet.
    So, in conclusion, thank you, sir, for the opportunity to 
testify today, and I look forward to your questions.
    [The prepared statement of Admiral Papp follows:]

          Prepared Statement of Admiral Robert J. Papp, Jr., 
                      Commandant, U.S. Coast Guard
    Good morning, Chairman Rockefeller, Ranking Member Hutchison and 
distinguished members of the Committee. I am pleased to be here today 
to discuss the Coast Guard's operational presence in the Arctic. I 
thank you for the opportunity to testify before you today.
An Evolving Arctic
    The United States is an Arctic Nation, and the Coast Guard has been 
operating in the Arctic Ocean since Alaska was a territory to assist 
scientific exploration, chart the waters, provide humanitarian 
assistance to Alaskan Native tribes, conduct Search and Rescue (SAR), 
and enforce the law. Today our mission remains remarkably similar to 
what it was in 1867; however, as open water continues to replace ice, 
human activity is increasing. With increasingly navigable waters, comes 
increased Coast Guard responsibility.
    Along with our statutory responsibilities, U.S. Arctic policy is 
set forth in the 2009 National Security Presidential Directive (NSPD) 
66/Homeland Security Presidential Directive (HSPD) 25. The Arctic 
Region Policy directive identifies objectives for the Arctic including 
directing the Department of Homeland Security to work with other 
nations and through the IMO to provide for safe and secure Maritime 
Transportation in the Arctic. NSPD-66 also directs the Secretaries of 
State, Defense, and Homeland Security, in coordination with heads of 
other relevant executive departments and agencies to carry out the 
policy as it relates to national security and homeland security 
interests in the Arctic. Executive Order 13547 (National Policy for the 
Stewardship of the Ocean, Our Coasts, and the Great Lakes) adopts and 
directs federal agencies to implement the recommendations of the 
Interagency Ocean Policy Task Force. These recommendations include, as 
one priority objective, identifying and implementing actions to address 
changing conditions in the Arctic through better stewardship. The Coast 
Guard is moving forward to execute its responsibilities under these 
directives.
    The Coast Guard is the Nation's principal maritime safety, 
security, environmental protection and law enforcement entity. We have 
the lead role in ensuring Arctic maritime safety, security and 
stewardship.
    From an operational perspective, in order to meet the requirements 
set forth in NSPD 66 and EO 13547, we must determine our Nation's 
vessel requirements for transiting ice-laden waters, consider 
establishing seasonal bases for air and boat operations, and develop a 
force structure that can operate in extreme cold and ice. As a matter 
of policy and stewardship, the Administration encourages the Senate to 
ratify the Law of the Sea Treaty. Law of the Sea has become the 
framework for governance in the Arctic. Every Arctic Nation except the 
United States is a party. As our responsibilities continue to increase 
in direct proportion to the Arctic's emerging waters, it is more vital 
than ever that the United States accedes to the Law of the Sea Treaty.
Arctic Trends
    The Arctic domain has been gaining national attention. Gradually 
increasing accessibility to waters previously covered by ice has 
increased the significance of maritime issues including freedom of 
navigation, offshore resource exploration and exploitation, and 
environmental preservation. Observations and trends relevant to Coast 
Guard operations include:

  <bullet> Dynamic changes in ice conditions: The recession of the ice 
        edge continues to open new water in the summer months. While 
        there is less ice and more water, the unpredictable movement of 
        existing ice flows and uncharted waters beneath a previously 
        frozen sea could present risks to ships that venture into these 
        waters.

  <bullet> Offshore Resource Development: Oil companies are in the 
        process of taking advantage of drilling and exploratory 
        opportunities in the Arctic. In May 2011, Shell submitted a 
        plan of exploration to the Bureau of Ocean Energy Management 
        Regulation and Enforcement (BOEMRE) that details company plans 
        to drill exploratory wells in the Chukchi Sea beginning in 
        2012. Other companies, including ConocoPhillips and Statoil, 
        own leases on the Arctic outer continental shelf and may submit 
        exploration plans as well. Shell is currently in the process of 
        retrofitting a mobile offshore drilling unit (MODU), the 
        Kulluk, designed for drilling in the offshore Arctic 
        environment and plans to have the drilling platform operational 
        in the spring of 2012. Shell modified their exploration plan 
        and updated their worst case discharge estimates from 5,500 
        barrels per day to 24,000 barrels per day to comply with new 
        BOEMRE requirements. The Coast Guard received Shell's revised 
        oil spill response plan from BOEMRE in May 2011 to review worst 
        case discharge estimates against the current Area Contingency 
        Plans and is now updating the North Slope and Northwest Arctic 
        Subarea Contingency Plans to reflect this new activity.

  <bullet> Extended Continental Shelf: This summer marks the fourth 
        year the U.S. Coast Guard Cutter (CGC) HEALY and the Canadian 
        icebreaker LOUIS ST. LAURENT will work together to collect 
        seismic and bathymetric data in the Arctic Ocean. This data is 
        necessary to delineate the outer limits of the continental 
        shelf beyond 200 nautical miles.
Meeting Homeland Security Needs in the Arctic
    As part of a multi-agency effort to implement the Arctic Region 
Policy, the Coast Guard continues to push forward and assess our Arctic 
operational limits. In 2008, 2009 and 2010 the Coast Guard set up 
small, temporary Forward Operating Locations on the North Slope in 
Prudhoe Bay, Nome, Barrow and Kotzebue, AK to conduct pulse operations 
with Coast Guard boats, helicopters, and Maritime Safety and Security 
Teams. We also deployed our light-ice capable 225-foot ocean-going buoy 
tenders to test our equipment, train our crews and increase our 
awareness of maritime activity in the region. Additionally, from April 
to November we fly two aircraft sorties a month to evaluate private, 
commercial, and governmental activities. These initial missions have 
provided valuable information that we are applying to future 
operations, gaining insight on infrastructure requirements and force 
structure development.
Protecting the Maritime Environment
    To protect the Arctic environment, we engage industry and the 
private sector to address their significant responsibilities for 
pollution prevention, preparedness, and response capability. 
Recognizing that pollution response is significantly more difficult in 
cold, ice and darkness, enhancing preventative measures is critical. 
Those engaging in offshore commercial activity in the Arctic must also 
plan and prepare for emergency response in the face of a harsh 
environment, long transit distances for air and surface assets and 
limited response resources. We continue to work on raising awareness of 
these challenges, and foster continued development of contingency 
plans, and communications.
    While prevention is critical, the Coast Guard must be able to 
respond to pollution incidents where responsible parties are not known 
or fail to adequately respond. The Federal On-Scene Coordinators and 
their staffs at Sector Juneau, Sector Anchorage, and Marine Safety Unit 
Valdez provide incident management expertise and limited pre-positioned 
response equipment. Additionally, the Coast Guard Pacific Strike Team 
based in Novato, CA maintains response equipment and specialized 
personnel which can deploy to the Arctic on short notice. Furthermore, 
Air Station Kodiak C-130 crews are trained to deploy the Aerial 
Dispersant Delivery System (ADDS) out of Anchorage.
    We have exercised the Vessel of Opportunity Skimming System (VOSS) 
and the Spilled Oil Recovery System (SORS) in Alaskan waters, but we 
have yet to conduct exercises north of the Arctic Circle. Both of these 
systems enable vessels to collect oil in the event of a discharge. The 
VOSS is deployable and capable of being used on a variety of ships and 
the SORS is permanently stored and deployed from the Coast Guard's 225-
foot ocean-going buoy tenders. However, these systems have limited 
capacity and are only effective in ice-free conditions.
    The Coast Guard needs to test and evaluate these systems in icy 
waters. Notably, the President's Fiscal Year 2012 Budget supports 
research and development work, including research on oil detection and 
recovery in icy water conditions.
    There are five Oil Spill Removal Organizations (OSROs) classified 
in the State of Alaska that support vessel and facility response plan 
holders. Two large OSROs service Prince William Sound and Prudhoe Bay; 
one OSRO provides response capabilities in Cook Inlet; and two service 
the Aleutian chain and Southeast Alaska with response capability for 
refined products only. None of the OSROs in Alaska are classified for 
open ocean responses.
    Fisheries are also a major concern. The National Marine Fisheries 
Service, based on a recommendation from the North Pacific Fisheries 
Management Council, imposed a moratorium on fishing within the U.S. EEZ 
north of the Bering Strait until an assessment of the practicality of 
sustained commercial fishing is completed. Regardless of the outcome of 
this assessment, the Coast Guard will continue to carry out its mission 
to enforce and protect living marine resources in the region.
Facilitating Safe, Secure, and Reliable Navigation
    The Coast Guard continues to update the Waterways Analysis and 
Management System to determine navigational requirements, vessel 
traffic density and appropriate ship routing measures. The Coast Guard 
is also moving forward with a Bering Strait Port Access Routing Study, 
which is a preliminary analysis to determine navigational and vessel 
traffic and other safety requirements. This study is in the initial 
phase and, because the Bering Strait is an international body of water, 
this requires coordination with the Russian Federation before it can be 
acted upon by the International Maritime Organization (IMO).
Supporting Multi-Agency Arctic Region Policy Implementation
    The Coast Guard continues to support international and multilateral 
organizations, studies, projects and initiatives, including work with 
the Arctic Council, IMO and their respective working groups. The Coast 
Guard also conducts joint contingency response exercises with Canada 
and maintains communications and working relationships with Canadian 
and Russian agencies responsible for regional operations, including SAR 
and law enforcement. Additionally, Secretary of State Hillary Clinton 
recently signed an Arctic SAR agreement, which memorialized the intent 
of all Arctic nations to cooperate in SAR operations. The Coast Guard 
will continue to engage Arctic nations, international organizations, 
industry and Alaskan state, local and tribal governments to strengthen 
our partnerships and inter-operability. To meet this end, the Coast 
Guard is cooperating with the Department of State, BOEMRE, the National 
Oceanographic and Atmospheric Administration (NOAA) and others in 
leading U.S. participation in the Arctic Council and EPPR to develop an 
Arctic wide instrument focused on improving availability and access to 
Arctic capable equipment and personnel for catastrophic incident 
response.
    In particular, engagement with Alaskan Native Tribes continues to 
be highly beneficial. Efforts to learn from their centuries of 
knowledge--and their willingness to share it--have made operations 
safer and more successful. This year, the Coast Guard is again working 
with tribes in remote villages on the North Slope and along 
northwestern Alaska to conduct boating safety exchanges. The Coast 
Guard is working hard to ensure tribal equities are recognized and 
considered. The Coast Guard continues to value our partnerships with 
our Native Alaskan friends.
    CGC HEALY is presently supporting Arctic research efforts 
throughout the summer and into early fall. These operations are 
supporting research by the National Aeronautics and Space 
Administration (NASA), Naval Research Lab, National Science Foundation, 
Office of Naval Research, and the Department of State. Presently, NASA 
scientists are aboard CGC HEALY conducting their ICESCAPE mission--
``Impacts of Climate on Ecosystems and Chemistry of the Arctic Pacific 
Environment'' to study the impacts of climate change in the Chukchi and 
Beaufort seas. NASA does part of this mission from space--but also 
needs ``boots on the ice'' to better understand satellite data from 
this complex and emerging region.
Law Of The Sea Treaty
    All other Arctic nations and most other nations worldwide have 
acceded to the Law of the Sea Treaty. Arctic nations are using the 
treaty's provisions in Article 76 to file extended continental shelf 
claims with the U.N. Commission on the Limits of the Continental Shelf 
(CLCS) in order to expand the territory over which they have exclusive 
rights to resources on and beneath the Arctic seabed. If the United 
States made an extended continental shelf claim, the Nation could 
potentially assert sovereignty over 240 miles of additional seabed 
territory out to 440 miles from our land base line, far beyond the 
existing 200 nautical mile Exclusive Economic Zone. This area 
reportedly contains some of the richest deposits of oil and natural gas 
in the Arctic. However, until the United States accedes to the Law of 
the Sea Treaty, it is unlikely CLCS will entertain any U.S. submission 
of an extended continental shelf claim. Acceding to the Law of the Sea 
Treaty also provides the United States with standing to work within the 
Law of the Sea Convention framework with other Arctic Nations on issues 
such as environmental stewardship. As such, the Administration, along 
with other industry and academic leaders, supports favorable action on 
the part of the U.S. Senate with regard to the Law of the Sea Treaty.
Current Arctic Capacities And Limitations
    The U.S. Coast Guard's extensive history of Arctic service provides 
both experience and an expansive network of governmental, non-
governmental, and private partnerships to draw upon. However, while 
summer operations continue to provide valuable lessons and help us gain 
insights regarding the Arctic, we must acknowledge the seasonal 
limitation of these efforts.
    There are few national assets capable of operating in the harsh 
Arctic maritime environment. As new capabilities are developed, the 
Coast Guard will work to ensure its force structure is appropriately 
sized, trained, equipped, and postured to meet its Arctic mission 
requirements. Currently, the Coast Guard has one operational ice 
breaker, the 11-year-old HEALY, a medium icebreaker or Polar Class 3, 
specifically adapted for scientific research. Our two heavy polar ice 
breakers, or Polar Class 1s, are not operational. The 34-year old POLAR 
SEA has been out of commission due to a major engineering casualty, and 
is now in the process of being decommissioned. The 35-year old POLAR 
STAR, which has been in a caretaker status since 2006, is currently 
undergoing a major reactivation project, funded by 2009 and 2010 
appropriations, and is expected to be ready for operations in 2013. 
Surface capability is vital to meet our responsibilities in the region. 
Although the risk of an incident in ice-covered U.S. waters is 
currently low, our Nation must plan for ice capable assets in the 
future that can effectively carry out SAR and environmental response in 
ice-laden waters. In the near term, the Coast Guard can utilize the 
HEALY to manage the response or rely on our foreign arctic partners 
that have icebreakers operating in the area.
    The Coast Guard's most immediate operational requirement, however, 
is infrastructure. Energy exploration is emerging on the North Slope of 
Alaska, but the existing infrastructure is extremely limited. The Coast 
Guard needs facilities to base crews, hangar aircraft, and protect 
vessels in order to perform prevention and response missions.
Conclusion
    With an emerging Arctic Ocean comes increased national operational 
responsibilities. National Security Presidential Directive (NSPD) 66/
Homeland Security Presidential Directive (HSPD) 25 and Executive Order 
13547 guide the Arctic region mission objectives for all agencies 
including the Coast Guard. To meet NSPD 66's and EO 13547's direction, 
the Coast Guard is working closely with its many inter-agency partners, 
and Alaska State, local and tribal governments. For the past 4 years, 
the Coast Guard has been conducting limited Arctic operations during 
open water periods. However, as operational tempo increases in the 
Arctic, the Coast Guard will require specialized vessels, aircraft, and 
crews trained to operate in extreme climates.
    The nation must build toward a level of mission performance and 
preparedness commensurate with the relative risks posed by Arctic 
activity. The Coast Guard must continue working amongst the interagency 
to refine future mission requirements, identify the precise mix of 
national assets, capabilities and infrastructure needed to meet these 
requirements, and look for collocation opportunities. Coast Guard will 
continue to seek out opportunities with our Arctic neighbors and the 
global community to address the critical issues of governance, 
sovereignty, environmental protection, and international security.
    While there are many challenges, the increasingly open Arctic Ocean 
also presents unique opportunities. The relatively undeveloped 
infrastructure, current low commercial maritime activity levels, and 
developing governance structure provide an opening to engage in 
proactive, integrated, coordinated, and sustainable U.S. and 
international initiatives. The Coast Guard looks forward to working 
with the Congress on how we can support our emerging national 
objectives and responsibilities in the Arctic Ocean.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Senator Begich. Thank you, Admiral Papp. And again I want 
to thank you and your folks here not only in Alaska, but around 
the country, because any time there is a disaster, no matter 
where it is, they are--you draw from wherever your resources 
are. So, thank you for the men and women that work for the 
Coast Guard, both in uniform and civilian. They do an 
incredible job. And it is always a pleasure to go to the 
facilities, but also to go to some of the events that they are 
engaged in, such as the annual recognition of the work they do. 
So, thank you for that.
    Let me, if I can, you hit on one thing, and this will be 
very quick. I ask you this on every opportunity because I 
continue to want to make it part of the record. You said it 
toward the end there, and that is just briefly the importance 
of the Law of the Sea. It is, at least from my perspective, it 
is the one document that it seems like everyone agrees. It is 
just the process of getting it to the Senate and have some 
action on it.
    But, again, for the record, the Coast Guard is supportive 
of the Law of the Sea at this point.
    Admiral Papp. Oh, absolutely, Mr. Chairman. We have--I have 
stated that publicly in almost every forum I go to. And we are 
continuing to work and make the round and speak to whatever 
group that will listen to us to press the need for this to be 
acceded to.
    Senator Begich. Excellent. Let me--there is an effort--I 
know the Arctic Council did some work in regards to oil spill 
or rescue coordination, but now they are kind of focused with 
the Arctic nations in regards to oil spill technology and what 
can be done in the future.
    The Oil Spill Commission recommended that the Coast Guard 
work to involve more state and local in the planning and 
training through regional councils. And we will have some of 
those later that you and I will have a chance to listen to. Can 
you give me kind of your thoughts on how the Coast Guard will 
take that recommendation from the Oil Spill Commission, and 
what to do with it next, and how to engage local communities? I 
know we are doing it here obviously in the Prince William Sound 
and the Cook Inlet, but the Arctic will be a future opportunity 
in the Gulf obviously.
    Admiral Papp. Yes, sir. I agree completely with the 
philosophical concept of engaging. The Coast Guard is unique 
amongst our five services because for the most part, we are 
assigned locally. We have become parts of the communities that 
we live in. And it is not unusual for us, even in a large port 
like New York or any of our sectors, where we have safety 
committees, we have maritime security commissions. We bring in 
state, local, federal NGOs all together under the auspices of 
our Coast Guard to listen, to gain consensus, and to leverage 
each other, and form partnerships in order to get the jobs 
done. In fact, one of my principles by becoming Commandant is 
to strengthen our partnerships, knowing full well the Coast 
Guard could never do the job on our own, nor do we know 
everything, and we need to rely on other people's advice and 
counsel.
    I carried that forward by going up to the North Slope 
during this visit and spending parts of two days up there 
listening to Mayor Itta, listening to the assembly, talking to 
the people in the community, and getting a feel for what goes 
on up there. This is all very important to us.
    The ultimate codification of that concept is--would be a 
regional committee. Whether we need an official regional 
committee in the Arctic I think is something that is worthy of 
further consideration and discussion. I think it works well in 
areas like--for instance, I met with the group over in----
    Senator Begich. Prince William Sound.
    Admiral Papp.--in Valdez for Prince William Sound 
yesterday. And I think that that has developed and served us 
well over time. Whether we need something as formalized as 
that, I am not confident at this point, but I certainly agree 
that we have to engage all parties, listen to their concerns, 
and we will continue forward with that.
    Senator Begich. Very good. Let me ask you. I know Canada is 
doing some work with--you mentioned our icebreaker capacity, 
and I should have--I want to ask you. We have three. Two are 
not operational right now, and the one we have is how old, that 
is out there right now?
    Admiral Papp. The one that is out there right now is the 
Cutter HEALY, and she is coming up on 12 years old right now.
    Senator Begich. Twelve years. And I think what Canada is 
doing, and I am just looking at my notes here, is an Arctic 
capable offshore patrol. There has been about $3.3 billion in 
the aid of these facilities. Is that something that is 
worthwhile looking at--it is not a full icebreaker, but it is 
Arctic capable--for patrol and enforcement. Is that worthy of 
the Coast Guard? I know you just finished your high latitude 
study and had a lot of resource needs which we would need in 
the Arctic. Does this fit into it, or is what Canada is doing 
just a little bit different in what their targeting goal is?
    Admiral Papp. Well, they are looking at ice capable 
vessels--
    Senator Begich. Right.
    Admiral Papp.--and I think the concept of ice capable 
vessels is good. In fact, it is our intention next summer to 
bring up a couple of ships, which I call ice capable. We have 
225-foot buoy tenders, our WLBs. We have 16 of them in service; 
they are very versatile, capable ships. We use them for 
breaking ice on the Great Lakes. And, in fact, we have one of 
them deployed in the Eastern Canadian Arctic this summer in 
Operation Nanook. We have once before sent one up to the North 
Slope, and it was probably the most successful large cutter 
that we have had up there. It has an ice strength hull. It can 
do minimal icebreaking.
    It is my intention at this point to send two of them up 
next summer because I think we have the capacity to do that. 
And try to keep a one ship presence at all times up there as 
exploration starts, also to give us some additional experience.
    That should inform decisions made in the future. Obviously 
I have got acquisition project baselines----
    Senator Begich. Right.
    Admiral Papp.--working right now that I need all the 
capacity within our acquisition budget to execute. Taking ice 
capable above and beyond what we have right now is another step 
beyond that. But, as I said, I believe we have got ice capable 
ships.
    Senator Begich. Do you think you have some that are close 
or similar capacity to what Canada is doing that you can have 
ice capable? Again, it is not icebreaking; it is ice capable, 
meaning that they could sustain--
    Admiral Papp. Yes, sir, that is correct. And I would say 
the only lack of capability that these ships that I would--that 
we would deploy up there and have is that they do not have a 
helicopter flight deck. I think ideally what you would like is 
to have a ship up there that does have a flight deck, that can 
hangar helicopters. You really--if you can put a ship up there 
that has got worldwide communications, it is ice capable, it 
has a flight deck and can hangar helicopters, you almost 
eliminate your need for shore side infrastructure----
    Senator Begich. Right.
    Admiral Papp.--because you have got it all there.
    Senator Begich. You have got it all there. It is a 
floating----
    Admiral Papp. A floating city.
    Senator Begich. Yeah. Tell me the experience, and I know 
you mentioned on the national security cutter, the BERTHOLF, 
was there anything as you are continuing to construct new 
facilities, did you learn something off of that experience that 
said, aha, we have got to maybe make some modifications? Or 
tell me how--I know you mentioned it went well, but did you--
was there things in that that really told you, we got to make 
some modifications? What was your experience in that, or is too 
early to kind of know at this time?
    Admiral Papp. I have seen no problems. Now, I did not ride 
BERTHOLF in the Arctic. I have got good reports from the 
Commanding Officer. But I did have an opportunity a few months 
ago to go to the Cutter WAESCHE, the sister ship, which was 
operating off San Francisco at the time. Had a chance to ride 
the ship for the entire day. I am a lifelong sailor. I am a 
ship captain. And I am almost tempted to trade in my stripes if 
I could go back and be captain of one of these ships. It just 
has such great capability. I saw no flaws. I saw nothing that 
steers me away from the course that we are on right now. We 
just need to get more of them out there because they allow our 
crews more flexibility, more capability, greater effectiveness, 
and greater comfort when they are operating in the harsh 
environments of the Arctic.
    And as we know, the Arctic stretches all the way down to 
the Aleutian Islands----
    Senator Begich. That is right.
    Admiral Papp.--for our purposes. And they have got to be 
able to operate from the Gulf of Alaska all the way up above 
the Arctic Circle.
    Senator Begich. So, at this point, there is nothing that 
stands out--it seems like a pretty good ship to continue to 
construct and develop at this point.
    Admiral Papp. Absolutely. And we have a fixed price for it 
now.
    Senator Begich. That is even better.
    Admiral Papp. As long as we have predictability of the 
shipyard. And, as I said, we are in the final negotiations on 
number five now, so I cannot talk much about it. But I am 
confident we are coming in at a good price. But what the 
shipyard does is it needs the incentive of a predictable 
funding stream in order for them to go out and buy long-lead 
items and other things to keep the price low and to keep the 
production line going.
    Senator Begich. Very good. What--if I can move into another 
realm--we have a little bit of time left here before we go into 
the listening session. And that is, you have declared 2011 the 
year of the Coast Guard family. And I know your wife has been 
visiting some of the housing and some of the locations. Can you 
give me some of your thoughts on what we need to be doing? And 
I say we collectively. I know you are doing work on your end. 
But what does Congress need to do, because the most important 
thing--I mean, you know it better than anyone. If your families 
are well taken care of, the odds are you increase the capacity 
of response. And people who want to come to Alaska, work in 
these incredible conditions. I know it is the scorecard every 
Coasty wants to get to come to Alaska. But it is tough work, 
and the families are an important part of it.
    What are some of the things that you are working on? I know 
housing, we are going to hear later today from folks concerned 
about housing access capacity. But what are some of the other 
things that we need to be doing collectively to really make a 
difference for families, so when you put the call out for more 
folks to be part of the Coast Guard, there is not a hesitation? 
There is a great desire because it works not only for them as 
individuals, but for their families.
    Admiral Papp. What Linda and I have heard from our families 
up here, and, yes, sir, it is the year of the family. I think I 
made a mistake when I called it year of the family because it 
implies one year. We have a number of option years which we 
will exercise as we go along.
    Senator Begich. For infinity basically.
    Admiral Papp. I am humbled. I am humbled when I come up to 
places like Alaska and other places in the country where I see 
these patriotic young men and women who join up and serve for 
the honor of serving, their dedication. And they will put up 
with shortcomings because they love what they do. They love 
being in Alaska, and they know they are making a difference. 
They are saving lives.
    But they should not have to put up with some of the things 
they put up with. And if it was across all five of the 
services, I might understand. But I have had a chance to visit 
Navy bases, Air Force bases, Army forts, Marine Corps camps, 
and I have seen the housing that they have been able to build 
for their people over the last 10 years through public/private 
ventures and other means. And the Coast Guard has fallen 
woefully behind the other services in terms of the housing and 
other benefits that they are able to provide.
    Part of that is that community--being stationed in the 
community that we talk about. We are in remote locations in 
small numbers. Therefore, it is hard to like what the other 
services do where they are primarily on large bases where they 
have multiple services, family services, housing, and 
everything else. The Coast Guard always lacks the critical mass 
to get that done.
    So, consequently, my estimate is we have about a $2 billion 
backlog in shore projects. A lot of that is housing. Some of it 
is station buildings, piers, bulkheads, and other things. And 
we just, because of higher priorities--ships and aircraft, 
which if you do not repair them or replace them, they either 
sink or they fall from the sky. So, housing and shore things 
always tend to take a backseat unfortunately to some of the 
other higher demands that we have.
    How we get about the business of chipping away at that 
backlog is a severe challenge for us, particularly as we go 
into more constrained budgets. But I would just ask for 
Congress's consideration and remembering that there are very 
needy Coast Guard families out there that need better housing. 
Some of our housing, while we do our best to try and keep it 
up, it is 50, 60 years old or more, and many times hand me 
downs from other services that have left----
    Senator Begich. Some of it has actually been moved onto the 
Coast Guard bases that have been old stuff.
    Admiral Papp. Absolutely.
    Senator Begich. You know, it is interesting the military--
from the DoD end, you are right. There is this effort, this 
kind of public/private partnership where they have been able, 
because they have such quantity. Do you think there is an 
avenue, even though you have remote locations, maybe taking, 
you know, the top five or six or seven or maybe ten locations 
that have at least a marginal volume, batching them together 
into a national private/public partnership kind of deal where 
you can say to--like what they have done--I know here we have 
some incredible housing, you have probably seen it on the base 
here, that has been developed over the years. And it is a 
public/private partnership.
    Is there way maybe that--because some of these companies do 
work nationally, they are all over the place--to say, okay, 
here are our 10 locations. We are going to batch them together. 
And what we want to do is the same thing that the Army did or 
the Air Force did where they do these 30-, 40-, 50-year lease 
programs where it is actually huge benefit for the servicemen 
and women. Is that worthwhile to explore do you think?
    Admiral Papp. Absolutely. Yes, sir. In fact, we have a 
number of locations right now where we have worked with the 
authorities that the Department of Defense has. And what we 
have done is we have done inter-service transfers of property. 
For instance, we have property in Hawaii where we transfer the 
property over to the Army. The Army has a public/private 
venture. They went in, tore down the old housing----
    Senator Begich. Gotcha.
    Admiral Papp.--building new housing. And the Coast Guard is 
able to use it. Elmendorf has been great in terms of offering 
opportunities for our people, and we have other locations where 
the--for instance, I have Coast Guard people in Washington, 
D.C. that live down at Fort Belvoir in the public/private 
venture housing. So, we take advantage of that wherever we can.
    We do inter-service trades wherever we can. But right now, 
the Coast Guard does not have its own authority to----
    Senator Begich. Right.
    Admiral Papp.--to enter--we once had it, but then we ran 
into a problem because, I believe it is--I have to clarify 
this, but I believe it is a GAO rule in terms of scoring 
against your budget. And what you have to do is you have to 
come up with upfront money scored against your budget to the 
entire cost of the project, which we have never been able to 
absorb within our appropriation. So, we are investigating other 
ways we might get around that before we come back to all of you 
and ask for the authorities once again to enter into it.
    Senator Begich. Well, I will tell you. I thought we would 
have a hearing without mentioning CBO, but I will leave that. 
Yeah. But, no, you know, you and I probably go crazy with the 
way they do their work. For the public as an audience, the 
Congressional Budget Office does all this scoring, which is 
really trying to figure out how things are paid for or not, and 
then later in life we find out they were off. But we will put 
that aside for another debate. I will do that in the Budget 
Committee, I will have that argument.
    But I will say this, that we should look at this. I mean, I 
know there were some issues last time on the scoring. But as we 
move forward for reauthorization of the Coast Guard, you know, 
I think we are anxious, because I think the housing and the 
onshore facilities are critical. And if DOD can get the 
authorization, we got to figure out how to skin this cat, allow 
you the same authorization, or at least have that tool in your 
box. So, how you use it will be your determination.
    But CBO is a mystery group. I do not know where they are in 
the Capitol, but they are probably in some room down with no 
windows. And they make stuff up, and they bring it to us, and 
we go, that is the answer, I guess. You have had to suffer 
through it. I have had to suffer through it.
    Admiral Papp. Well, just to show you how deeply I believe 
in this, we actually sold the Commandant's house. We owned a 
home in Chevy Chase for the Commandant for close to 45 years, I 
think it was. We looked at public/private ventures. The Air 
Force allowed us to get into it. I now live on Bolling Air 
Force Base in Washington, D.C., and I pay my housing allowance 
each month for at least--it is owned by a private company. And 
the Committee last year in our authorization bill gave us the 
authorities to take the proceeds from the sale of homes, turn 
that back into Coast Guard housing projects.
    Senator Begich. Excellent.
    Admiral Papp. So, we sold the Commandant's house, the Vice 
Commandant's house, and the Chief of Staff's house. Brought in 
about $4 million, which we will gladly now turn into housing 
for our enlisted people.
    Senator Begich. Oh, that is great. Well, let us clearly 
work on that. I know we are at our last minute here. I will 
just say one thing in regards to that, and another area that we 
will want to work on. I know as I have traveled throughout the 
State, especially down in Ketchikan and Kodiak and others, as 
you mentioned, when you kind of look at the priorities of your 
ships, your airplanes, your air capacity, and then shore, it is 
always kind of the last to get the money just because you got 
to keep these moving.
    As we figure out and work on the housing, let us--I know 
you need additional resources for facilities to maintain the 
air capacity and the water capacity. So know there are some 
efforts that we need to make in regards to ensuring that there 
are resources there to provide the facilities. Otherwise, you 
cannot do the full maintenance, or you are doing it because I 
have seen those guys. They are working unbelievable, and they 
are working in conditions that if they just had more space, or 
a better hangar, or a better docking facility, they could 
actually produce even more capacity and, my bet is, save us 
money. I am guessing that, watching how they have to work in 
very tight quarters when they are moving ships in and out to 
maintain them or aircraft. And so, that is an area of real 
concern that we have.
    Admiral Papp. And I would just put in a plug that we do 
have a lot of money in the 2012 budget, part of which goes 
towards Ketchikan----
    Senator Begich. Right.
    Admiral Papp.--to prepare the piers and waterside 
facilities for those two patrol boats that we intend to put 
there in the future.
    Senator Begich. And when is the timetable again on the 
patrol boats, do you think, the two new ones?
    Admiral Papp. We have to put critical mass--in other words, 
in terms of--we prepared support for them in Key West and in 
Miami, and that is where the first boats will go. That is why 
we are freeing up one of the patrol boats from Miami, will come 
up here to sort of fill a little bit of the gap right now.
    I anticipate by the time we get the facilities built in 
Ketchikan and the patrol boats, given the expectation that that 
contract will continue on schedule, I think it is probably 
going to be about three or four years before the boats actually 
arrive in Ketchikan.
    Senator Begich. But still, that is not bad at all.
    Let me say, Admiral Papp, thank you very much. This is 
actually the official hearing, and what we are going to step 
into next, and I understand you are going to join me up here 
for a listening session. We have a great group of Alaskans and 
others who want to present on different issues to us, which we 
are anxious to accept.
    The official field hearing will close now, but we will 
leave the record open for additional comments for the next 
weeks.
    But, again, Admiral Papp, to your wife, thank you very 
much. And to your team that is here, thank you for what you do 
every day to keep our waters and air and keep our--especially 
our fishing season right now, which I know is very busy, 
keeping things safe on the line.
    Thank you very much.
    Admiral Papp. Thank you, Mr. Chairman.
    Senator Begich. This field hearing is adjourned, and we 
will reassemble as a listening session in just a few minutes.
    [Whereupon, at 10:35 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
